Before the Committee on Transportation and Infrastructure
United States House of Representatives


For Release on Delivery
Expected at               Ensuring ARRA Funds
10:00 a.m. EDT
Wednesday
May 4, 2011
                          Are Spent Appropriately
CC-2011-025
                          To Maximize Program
                          Goals




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Mica, Ranking Member Rahall, and Members of the Committee:

Thank you for inviting me here today to discuss the Department of Transportation’s (DOT)
implementation of the American Recovery and Reinvestment Act (ARRA). ARRA designated
$48 billion for new and existing DOT programs to create and save jobs, invest in long-term
growth, and improve the Nation’s transportation system. In addition to the infusion of billions of
dollars into DOT programs, ARRA established extensive new transparency and accountability
requirements.

Since ARRA’s passage, DOT has been tackling the difficult work of administering the large
infusion of ARRA funds. However, more difficult work is ahead. With many major projects
entering the construction phase and new high-dollar ARRA projects getting underway, a
significant portion of DOT’s recovery funds are just now being spent.

My testimony today will focus on four key challenges DOT faces in ensuring ARRA dollars are
spent appropriately to maximize program goals: (1) addressing vulnerabilities in its High-Speed
Intercity Passenger Rail (HSIPR) and Transportation Investment Generating Economic Recovery
(TIGER), two new ARRA-funded discretionary grant programs; (2) meeting ARRA
requirements for reporting on jobs and considering economic impact; (3) ensuring grantees
provide effective project and financial management; and (4) preventing fraud, waste, and abuse.

IN SUMMARY
DOT faces substantial challenges in ensuring its HSIPR and TIGER programs meet ARRA’s
reporting, transparency, and program and financial management requirements, and that the
significant ARRA dollars obligated under these programs are not wasted. Our ARRA audits—
which have primarily targeted the Federal Highway Administration (FHWA), the largest
custodian of DOT's ARRA dollars, and the Federal Aviation Administration (FAA)—can help
inform DOT regarding the critical decisions it must make in the future. Specifically, DOT needs
to improve jobs data reporting and grant selection processes to meet ARRA’s transparency and
accountability requirements and its goal to optimize economic growth; strengthen project and
financial oversight to ensure quality and maximize efficiency; and take proactive measures to
combat fraud, waste, and abuse.

BACKGROUND
ARRA designated an unprecedented $48 billion for DOT programs. According to the Secretary
of Transportation, ARRA represents “the largest investment in America’s roads, bridges, transit
lines, and rail systems since the creation of the interstate highway system.” Key provisions of
ARRA are preserving and creating jobs, promoting economic recovery, and investing in
transportation infrastructure that will provide long-term economic benefits.

Almost 95 percent of DOT’s ARRA funds are distributed to FHWA, the Federal Railroad
Administration (FRA), and the Federal Transit Administration (FTA) for the construction and
maintenance of highway, road, bridge, rail, and transit projects (see table 1). The remaining


                                                                                                1
ARRA funds are distributed among the Office of the Secretary of Transportation (OST), FAA,
the Maritime Administration (MARAD), and the Office of Inspector General (OIG).

Table 1. Distribution of ARRA Funds Within DOT

DOT Operating                                                    ARRA Funds
Administration                                                 ($ in millions)                   Percent of Totala
FHWA                                                               $27,500                                57.15%
FRA                                                                  $9,300                               19.33%
FTA                                                                  $8,400                               17.46%
OST                                                                  $1,500                                 3.12%
FAA                                                                  $1,300                                 2.70%
MARAD                                                                  $100                                 0.21%
OIG                                                                      $20                                0.04%
Total                                                              $48,120                              100.00%
Source: ARRA
a
  Percentages do not add up due to rounding.

In addition to providing funding for a number of existing DOT programs, ARRA directs DOT to
create several new programs and establishes tight time frames for distributing and expending
funds and reporting results, such as the number of jobs created. To ensure accountability, the
Office of Management and Budget (OMB) has called on Federal agencies to (1) award and
distribute funds in a prompt, fair, and reasonable manner; (2) ensure fund recipients and uses are
transparent to the public, and the resulting benefits are reported clearly, accurately, and
promptly; (3) ensure funds are used for authorized purposes and to mitigate instances of fraud,
waste, and abuse; (4) avoid unnecessary project delays and cost overruns; and (5) achieve
specific program outcomes and improve results on economic indicators. 1

Both the President and Congress have emphasized the need for accountability, efficiency, and
transparency in allocating and expending ARRA funds and have recognized the role of
Inspectors General and the Government Accountability Office in accomplishing these objectives.
In addition, ARRA created the Recovery Accountability and Transparency Board, consisting of
our office and nine other Inspectors General, and added funding to help address the increased
workload of monitoring ARRA programs.

In the first year after ARRA’s enactment, OIG focused on identifying key management and
funding vulnerabilities—including the need for sufficient personnel with grant oversight
expertise—to better position DOT to meet ARRA requirements and ensure funds are spent




1
    OMB “Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,” February 18, 2009.


                                                                                                                     2
wisely. 2 DOT developed an oversight plan that outlined key actions to address identified
vulnerabilities. We are monitoring DOT’s progress in mitigating these management and funding
risks. Additionally, we have initiated a number of audits that target high-risk areas. Exhibit A
lists our completed and ongoing ARRA work to date.

ADDRESSING VULNERABILITIES IN NEWLY CREATED HIGH-SPEED
RAIL AND INTERMODAL PROGRAMS
FRA and OST are responsible for administering, respectively, the HSIPR and TIGER
discretionary grant programs—two programs DOT expects to continue beyond ARRA. Standing
up the programs requires direct oversight of grantees constructing large infrastructure projects—
a role FRA and OST have not previously performed. FRA and OST have encountered
challenges in establishing necessary oversight controls. Failure to address these challenges could
have cost and schedule implications in the future.

FRA Faces Significant Challenges in Meeting Responsibilities Under Its
Expanded Role in High-Speed Rail
Historically, FRA has focused on promoting and overseeing railroad safety. In 2008, FRA’s role
was significantly expanded to include the development of high-speed rail. 3 ARRA accelerated
this expansion by adding $8 billion to HSIPR and established tight deadlines for program design
and implementation. Most notably, ARRA required FRA to issue within 120 days of its
enactment, interim guidance detailing grant application requirements. FRA met this mandate
and awarded ARRA HSIPR grant funds in January 2010.

Despite this accomplishment, FRA continues to face challenges in managing and administering
the HSIPR program. Our work indicates that FRA has not issued sufficient guidance for
preparing forecasts of net benefits of high-speed rail projects or for establishing access
agreements between states and their freight railroad partners. The forecasts provide the basis for
the sustainability of the service and thus FRA’s future award decisions. The access agreements,
particularly the Service Outcome Agreements, 4 are critical for FRA to ensure that the investment
achieves the anticipated public benefits. Finally, FRA has yet to finalize policies and procedures
that would ensure a core set of grant management responsibilities—such as programmatic and
financial reporting and monitoring contractors’ performance in constructing projects—are
consistently executed to meet Federal requirements. Yet, FRA has continued to concurrently
solicit and review HSIPR applications, issue HSIPR grant awards, and obligate the funds.

As of March 2011, FRA had obligated $5.4 billion of the $8 billion of ARRA funds awarded
under HSIPR. Less than 1 percent of that amount has been expended by grantees. With the

2
    OIG Report Number MH-2009-046, “American Recovery and Reinvestment Act of 2009: Oversight Challenges Facing the
    Department of Transportation,” March 31, 2009. OIG Report Number MH-2010-024, “DOT's Implementation of the
    American Recovery and Reinvestment Act: Continued Management Attention Is Needed To Address Oversight
    Vulnerabilities,” November 30, 2009. OIG reports and testimonies are available on our website: www.oig.dot.gov.
3
    The Passenger Rail Investment and Improvement Act of 2008 required FRA to establish a high-speed rail discretionary grant
    program and authorized $3.725 billion in program funding over 5 years.
4
    Service Outcome Agreements are tri-party agreements between the state, operator, and freight railroad companies addressing
    responsibilities, such as project ownership, maintenance, and passenger rail performance, to ensure the project benefits are
    realized. Typical agreements outline the number of train frequencies and on-time performance levels the freight railroad is
    required to support.


                                                                                                                              3
majority of HSIPR implementation and construction ahead, FRA has an opportunity and an
obligation to build in oversight controls before grantees spend a significant amount of program
money. We are currently examining the challenges FRA faces in awarding, obligating, and
disbursing grant funds. Doing so will determine how well FRA is managing its grant lifecycle
process; assessing the economic and financial viability of proposed projects; ensuring Federal
investments are allocated to the most worthy projects; and developing sufficient guidance on
state-freight railroad access agreements to ensure these projects meet HSIPR program goals.

Effective Coordination Between OST and Operating Administrations is Key
To Executing TIGER Grants
OST’s TIGER program is also in the early stages of implementation. In February 2010, OST
awarded $1.5 billion in discretionary grants to 51 recipients across the Nation for multimodal
surface transportation projects. These projects are expected to have a significant impact by
creating jobs and providing economic recovery. As of April 1, 2011, 3.6 percent of TIGER
funding had been expended.

OST is on track to meet its ARRA required deadline to fully obligate funds for all TIGER
projects by September 30, 2011. However, the grant agreements for 27 of the projects have
completion dates beyond February 2012—the congressional goal for completing TIGER
projects. Further, while OST completed an OMB-required risk assessment early in the TIGER
program, which contained many risks related to project selection, it will need to focus now on
identifying risks related to project implementation and carry out effective mitigation actions
addressing these risks.

We are examining OST’s and the Operating Administrations’ ability to oversee TIGER program
performance and the efficient use of ARRA funds. Effective oversight and management of the
TIGER program is highly dependent on OST’s coordination with the Operating Administrations,
although OST is ultimately responsible for ensuring ARRA requirements are met. OST relies
heavily on the four Operating Administrations currently administering TIGER grants—FHWA,
FTA, FRA, and MARAD—to carry out the program. To date, we have observed that FHWA,
FTA, and MARAD have oversight procedures in place, but FRA is still in the process of
developing them. In addition, Operating Administrations have varying requirements for grantee
reporting, and OST officials informed us that their biweekly discussions with Operating
Administrations are not documented. We will continue to assess the sufficiency of the oversight
procedures and evaluate the impact of our initial observations.




                                                                                             4
MEETING NEW ARRA REQUIREMENTS FOR JOBS REPORTING AND
CONSIDERING ECONOMIC IMPACT
On FAA-administered ARRA-funded projects, we identified weaknesses in the Agency’s jobs
data reporting—some of which extend across DOT—and its grant selection process. A lack of
rigor in jobs data reporting and grant selection hinders the Department’s efforts to meet ARRA’s
transparency and accountability requirements and its goal to optimize economic growth.

Jobs Data Reporting Errors Affect Efforts To Assess the Impact of FAA’s
ARRA Projects
FAA has weaknesses in its DOT Section 1201 reporting on ARRA jobs, based on our ongoing
audit. Section 1201, which is unique to DOT’s ARRA programs, 5 requires grant recipients to
periodically report to Congress on (1) the number of direct on-project jobs created or sustained
by each project receiving ARRA funds and (2) to the extent possible, the estimated indirect jobs
created or sustained in the associated supplying industries. We focused on FAA’s Airport
Improvement Program (AIP) 6—which received $1.1 billion to enhance the Nation’s airport
system. We found that 65 of 268 AIP grantees provided monthly reports to FAA on cumulative
job hours recorded for ARRA projects that showed fewer hours than the month before, indicating
that an error occurred at some point in reporting. While some of these errors may have been
corrected before the issuance of the DOT Section 1201 report in May 2010, 7 we found several
instances where incorrect data from airports were reported in the Section 1201 report, including
the fact that one airport reported over 100,000 more job hours than actually occurred.

DOT's Job Reporting Lacks Transparency Regarding Limitations in the
Methodology
Certain weaknesses in jobs reporting extend beyond FAA to DOT’s process for estimating and
reporting jobs information to Congress under Section 1201. For example, DOT’s latest report
did not include an estimate of the number of indirect jobs. DOT’s planned method to separate
indirect jobs from total jobs in future reports does not consider factors such as wage increases,
that can reduce indirect jobs—which means DOT’s indirect jobs estimates could be overstated.
In addition, the report does not state exactly how DOT calculated the total number of jobs funded
or note whether jobs were created or sustained. As a result, the full extent to which ARRA
funding for DOT projects results in direct on-project jobs or indirect industry jobs is also unclear.

By taking action to address these weaknesses, DOT would enhance transparency over this
important area and better satisfy the Section 1201 reporting requirement. In discussing overall
job reporting issues with us, DOT officials explained that the total jobs were calculated using the
President’s Council of Economic Advisers (CEA) methodology of dividing total dollar outlays
by $92,000. They also explained the basis for not distinguishing between created and sustained
ARRA jobs. We recognize the validity of the CEA methodology and the reasonableness of not
5
    An additional jobs reporting requirement established under Section 1512 initially required each recipient of ARRA funds to
    report quarterly the estimated number of jobs created and retained by ARRA-funded projects or activities. Subsequent OMB
    guidance on Section 1512 eliminated the distinction between created and retained jobs for reporting purposes.
6
    AIP provides funds primarily to enhance safety and security, maintain the infrastructure, increase capacity, and mitigate
    airport noise.
7
    DOT’s Section 1201 Report, dated May 7, 2010, includes data from February 17, 2009, through January 31, 2010.


                                                                                                                            5
trying to distinguish between created or sustained jobs. However, by providing additional
explanations in future reports on the limitation in the job counting methodology, valuable
information on the limitations in the methods would be communicated. In addition, inclusion of
estimates on indirect jobs would more fully comply with the reporting requirement the Congress
has established.

FAA’s Grant Selection Process Lacked the Rigor Needed To Ensure
ARRA’s Economic Goals and Transparency Requirements Were Met
FAA’s process for awarding $1.1 billion in AIP grants complied with five key ARRA
requirements, but fell short on two others.8 ARRA required agencies to use merit-based criteria
in selecting projects, including the ability of projects to optimize economic activity relative to
Federal dollars obligated. According to FAA, it has met this requirement because economic
factors, such as airport growth and long-term usage, are considered when FAA develops its
Airport Capital Improvement Plan (ACIP)—a rolling plan of AIP-eligible projects. However, it
was not apparent that FAA applied economic factors when developing its list of potential ARRA
grant candidates from the ACIP. Instead, FAA established selection requirements beyond those
required by Congress and the President, including geographic distribution and limits on the size
of awards. By doing so, FAA dispersed ARRA funds widely, but not necessarily to airports
experiencing growth or most likely to increase long-term use of the selected airports. For
example, five small airfields in Alaska collectively received $59 million—as much funding as
Texas and more than New York, Florida, and Illinois. Only California received more ARRA
funding.

FAA also fell short of meeting ARRA’s transparency requirements in its prioritization of
projects. Of the 360 projects FAA selected for ARRA funds, FAA publicly disclosed
information on its selection process for about 280 higher priority projects 9—not on the more than
80 lower priority projects selected. Until FAA discloses to the Congress and the public why
lower priority projects were funded, it will not have fully met ARRA transparency requirements.




8
    ARRA, OMB, and the President required FAA in making awards to (1) use its normal discretionary grant process; (2) award
    50 percent of funds in 120 days, and remaining funds in 1 year; (3) give priority to projects that can be completed in 2 years;
    (4) ensure ARRA funds do not supplant planned expenditures; (5) increase oversight beyond normal levels; (6) design
    transparent merit-based selection criteria; and (7) design selection process to optimize economic activity relative to Federal
    dollars obligated.
9
    For ARRA purposes, higher priority projects are those scoring equal to or higher than 62 in FAA’s National Priority Rating
    system.


                                                                                                                                 6
ENSURING EFFECTIVE PROJECT AND FINANCIAL OVERSIGHT AND
MANAGEMENT OF ARRA FUNDS
FHWA and FAA have taken actions to improve oversight of projects. However, both Agencies
continue to face significant challenges in effectively using these oversight mechanisms and
ensuring ARRA funds are appropriately spent. Further, strong financial oversight of grantees
and expanded use of single audits 10 are needed to prevent or detect improper payments. 11

Improved FHWA Oversight Mechanisms Are Critical To Efficiently
Complete Highway Projects
FHWA is responsible for overseeing more than half of DOT’s ARRA funds, which have been
obligated to over 13,000 highway projects ranging from relatively simple paving projects to
more expensive highway and bridge projects. As of April 22, 2011, FHWA reported that over
half of these projects were completed with 72 percent of ARRA funds expended. To ensure its
remaining ARRA dollars—many of which are obligated to more complex projects or higher risk
grantees—are spent wisely, it will be critical for FHWA to maximize use of existing oversight
mechanisms.

Within 3 months following ARRA’s passage, FHWA developed and implemented independent
National Review Teams (NRT) to assess states’ management capabilities and recommend
corrective actions. While the teams were conducting thorough assessments of states’
management of ARRA funds, FHWA had yet to fully address identified vulnerabilities. For
example, 12 percent of NRT observations on program vulnerabilities were not included in
summary reports to FHWA Division Offices, limiting accountability for needed corrective
actions. Moreover, FHWA had conducted only limited analyses of NRT results, preventing
FHWA from identifying national trends or emerging risks and assessing the effect of states’
corrective actions. FHWA took action to address the issues in our review and strengthen the
NRT process.

Opportunities to improve project performance, cost, and quality through value engineering
(VE) 12 may also be lost if FHWA fails to take prompt action to ensure states conduct VE studies.
Federal law requires all federally aided highway and bridge projects with an estimated total cost
equal to or exceeding $25 million and $20 million, respectively, to undergo VE studies during
project concept and design. In May 2010, FHWA revised its VE policy and created performance
measures for states. However, our ongoing review of high-dollar ARRA projects found some
states did not complete VE studies during the project design and concept phase, as required.
FHWA is updating its regulations to include VE requirements, years after Congress required it to

10
     The Single Audit Act requires state or local grantees to maintain a system of internal control over all Federal programs in
     order to demonstrate compliance with pertinent laws and regulations. Single Audit Act reviews are conducted to determine
     whether grantees are complying with these requirements. Independent single audits are conducted annually, in accordance
     with OMB Circular A-133, to determine whether grantees are complying with these requirements.
11
     An improper payment is defined as being any payment that should not have been made or that was made in an incorrect
     amount (including overpayments and underpayments) under statutory, contractual, administrative, or other legally applicable
     requirements. It includes any payment to an ineligible recipient, any payment for an ineligible service, any duplicate
     payment, payment for services not received, and any payment that does not account for credit for applicable discounts. OMB
     guidance also instructs agencies to report payments for which insufficient or no documentation was found as improper
     payments.
12
     VE studies aim to objectively review reasonable design alternatives on highway and bridge projects.


                                                                                                                              7
do so in the Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for
Users (SAFETEA-LU). 13

FHWA’s actions to address weaknesses in the oversight of local public agencies’ (LPA)14
infrastructure projects have also had limited impact. FHWA has acknowledged the risks
associated with LPAs, including a lack of state resources to perform adequate oversight of LPAs,
LPAs’ inadequate resources for contract administration and quality assurance procedures,
noncompliance with Federal labor requirements, and improper processing of contract changes.
We found continued noncompliance with Federal requirements for LPA projects in some states,
and we will be making recommendations to improve oversight of project costs and quality.

FHWA delegates much of its oversight responsibility for Federal-aid highway projects to states,
but it is ultimately accountable for ensuring projects comply with Federal requirements. We are
examining the agreements that define Federal and state oversight roles and responsibilities and
whether those agreements address Federal requirements and program risks. For some projects,
FHWA has retained approval responsibilities regarding project design, plans, contract awards,
and inspections—referred to as “full oversight.” We will determine whether this type of
oversight helps ensure that ARRA projects meet Federal requirements relating to quality and
cost. We are also assessing FHWA’s oversight of states’ practices for awarding ARRA-funded
highway contracts. Consistent with ARRA, DOT regulations require recipients of all Federal-aid
program funds to use bidding practices that are effective in securing competition. Optional
FHWA contract award guidance for state grantees suggests an effort be made to maximize
competition by a number of methods, including not publicly disclosing the bidders’ list, not
publishing the engineer’s estimate, extending advertising periods, and dividing large projects
into smaller ones. Promoting best practices for improved competition could achieve cost savings
in ARRA-funded and other Federal-aid contracts.

Strong Financial Oversight of Grantees and Use of Single Audits Are
Needed To Prevent or Detect Improper Payments
We have identified vulnerabilities in Operating Administrations’ financial oversight of ARRA
grantees and their compliance with OMB’s ARRA accountability requirements. For example,
FAA has primarily focused its oversight of AIP grantees on construction status of projects, not
on ensuring grantees comply with FAA and OMB financial requirements. While FAA took
several actions to increase its project oversight of AIP grantees—including adding technical
expertise and conducting site visits—a national consulting firm that FAA hired to review ARRA
payments determined that 14 of 24 ARRA-recipient airports did not have adequate
documentation to justify their ARRA payment requests, as required by FAA. These results are
consistent with findings we reported in December 2010 on FAA’s financial oversight of non-
ARRA-funded AIP program grants. We concluded that FAA’s approach to AIP grant oversight
is inadequate to effectively prevent or detect improper payments.

We have identified several potential causes for the shortcomings in FAA’s financial oversight of
AIP grantees. First, FAA relies on grantees to self-certify that they adhere to the specifics of

13
     Pub. L. No. 109-59 (2005).
14
     LPAs are agencies, other than state transportation agencies, that administer Federal-aid projects through design and/or
     construction—for example city and county governments.


                                                                                                                               8
their grant agreements and collect and maintain documentation that validates their ARRA
payment requests. Second, FAA does not review grantee payment requests beyond summary
documentation, which does not include actual contractor and subcontractor invoices for ARRA-
funded work. Third, ARRA grantees approve change orders for ARRA-funded contract work
without conducting FAA-required cost or price analyses, and without seeking FAA approval.
Finally, FAA employees at a number of locations around the country often cited staff and
resource limitations as impediments to their ability to more rigorously oversee airport sponsors’
use of ARRA funds.

Full compliance with OMB single audit requirements for ensuring grantees’ implement effective
corrective action plans would help FAA and DOT’s other Operating Administrations prevent
improper payments. Since May 2010, we have issued 66 Single Audit Action memorandums on
deficiencies in grantees’ procedures or in their operations in overseeing ARRA funds. Common
deficiencies include improper reporting and inadequate monitoring of sub-recipients. Based on
an ongoing audit of DOT’s implementation of single audit recommendations, Operating
Administrations frequently issued untimely and incomplete management decisions on single
audit findings, failed to include evaluations of grantees’ corrective action plans, and did not
follow through with grantees to confirm that they implemented corrective actions. Specifically,
16 questioned costs findings, totaling $3.7 million, awaited final decision or repayment for an
average of 20 months. We evaluated the tracking systems to identify grantees with unresolved
findings and problematic single audit histories at five Operating Administrations—FTA, FRA,
FHWA, FAA, and NHTSA. FTA had an effective tracking system, but the tracking systems at
FHWA, FAA, and NHTSA were ineffective and FRA did not have a tracking system.

We recently initiated an audit of oversight of improper payments in FTA’s ARRA programs; and
we are planning a similar audit of FHWA’s ARRA programs.

COMBATING COMMON FRAUD, WASTE, AND ABUSE SCHEMES
THROUGH PROACTIVE MEASURES
Since ARRA’s enactment, OIG has worked proactively with DOT to deter fraud schemes
through ongoing outreach, targeted assessments of projects with fraud risk indicators, and
investigations of criminal and civil complaints. Weaknesses in DOT’s suspension and
debarment (S&D) program increased the risk of inappropriately awarding contracts to
contractors that could defraud DOT. The surge in ARRA funding and significant construction
activity underscores the need for DOT and OIG to continue to aggressively pursue counter-fraud
efforts and maintain sound internal controls to prevent, recognize, and report fraud.

Proactive Measures Help DOT Combat Common Fraud Schemes
Ongoing outreach and assessments are key to combating fraud, waste, and abuse in ARRA-
funded programs. To date, OIG has provided 269 fraud awareness and prevention presentations
to over 18,800 Operating Administration officials, state DOT officials, local transit authority
staff, and aviation authorities. These presentations aim to alert stakeholders to common fraud
schemes: false statements, claims, and certifications; disadvantaged business enterprise fraud;
collusive bid rigging; product substitution; bribery and kickbacks; and conflicts of interest. OIG
has also participated in fraud prevention task forces with law enforcement partners, including


                                                                                                9
U.S. Attorney’s Offices; other Federal, state, and local OIGs; local prosecutors; and the Federal
Bureau of Investigation. Operating Administrations’ outreach to ARRA contract recipients is
critical to ensuring recipients of Federal grants and contracts have meaningful ethics programs
and sound internal controls to recognize, prevent, and report fraud.

With many high-dollar ARRA projects entering the construction phase, OIG’s and DOT
Operating Administrations’ use of independent risk assessments are also critical to identifying
and stopping fraud. For example, OIG is examining projects where the winning bid was
substantially below the engineer’s estimate. Some contractors intentionally underbid projects,
only to make up the lost revenues in fraudulent change orders and false claims. Operating
Administrations could conduct similar analyses as part of their ARRA oversight activities.
Doing so would be consistent with OMB’s direction to ensure agencies take strong action to
mitigate instances of fraud, waste, and abuse in the ARRA program.

Finally, we continue to investigate criminal and civil complaints related to ARRA. As of March
2011, we have 51 open ARRA investigations (see table 2)—45 of which the Department of
Justice is reviewing for potential prosecution.

Table 2. Open Investigations Into Allegations of ARRA Fraud, by
Operating Administration, as of March 31, 2011

Allegation                                             FHWA           FAA          FTA         DOT         Total
False Statements, Claims, Certifications                    15            1           2            1           19

Disadvantaged Business Enterprise Fraud                     10            4           3            0           17

Prevailing Wage Violations                                   5            0           1            0            6

Anti-Trust Violations, Bid Rigging, Collusion                4            1           1            0            6

Kickbacks                                                    1            0           0            0            1
            a
Corruption                                                   0            1           0            0            1
ARRA Whistleblower                                           1            0           0            0            1
Total                                                       36            7           7            1          51
Source: OIG
a
    This type of investigation involves allegedly dishonest or fraudulent conduct by individuals who are responsible
    for the oversight of ARRA funded projects.




                                                                                                                 10
Attention to Effective Suspension and Debarment Practices Can Help
Prevent Fraud and Waste
One of the strongest deterrents against contract fraud, waste, and abuse is DOT’s ability to make
timely S&D decisions and promptly report them to the Government’s tracking system.15
However, weaknesses in DOT’s S&D program have increased the risk of awarding contracts and
grants to individuals or firms that could defraud the Department. 16

In January 2010, we reported that it took DOT an average of over 300 days to reach a suspension
decision and over 400 days to reach a debarment decision, giving unethical, dishonest, or
otherwise irresponsible parties ample opportunity to bid for and receive contracts. These delays
were due largely to lengthy and unnecessary reviews being conducted before deciding cases and
a lack of priority assigned to DOT’s S&D workload. DOT’s management controls were also
inadequate for ensuring that suspensions or proposed debarments of parties found to be
irresponsible were made within DOT’s required 45-day limit. The cumulative effect of these
weaknesses increased the risk that DOT and other agencies could have awarded contracts and
grants to parties that DOT may ultimately suspend or debar.

DOT and FAA initiated corrective actions in response to recommendations we made. Notably,
in March 2010, DOT issued a revised S&D policy, which clarified the oversight and
management role of the Office of the Senior Procurement Executive. The policy also requires
that the Department take action to suspend or debar within 45 days of a referral by the Inspector
General or others, or to document the reasons why action is not being taken. While these agency
actions represent positive steps, sustained focus is needed to ensure DOT and FAA make S&D
decisions in a timely manner and provide strong management oversight for the program.

CONCLUSION
In closing, I want to emphasize the importance of addressing identified challenges now—before
many ARRA projects fully enter the construction phase and large scale projects, including
HSPIR, are launched. OIG embraces its key role in helping to ensure accountability, efficiency,
and transparency over DOT’s portion of the massive recovery program. We will continue to
assist the Department in its efforts through our audit and investigation activities until all ARRA
funds are spent. We are committed to promptly notifying DOT and Congress of actions needed
to prevent fraud, waste, and abuse and achieve ARRA goals.

Mr. Chairman, this concludes my prepared statement. I will be happy to answer any questions
you or other Members of the Committee may have.




15
     The Excluded Party Listing System is a web-based system maintained by the General Services Administration used to track
     S&D decisions and affected parties Governmentwide.
16
     OIG Report ZA-2010-034, “DOT's Suspension and Debarment Program Does Not Safeguard Against Awards to Improper
     Parties,” January 7, 2010, and OIG Testimony CC-2010-036 before the Committee on Oversight and Government Reform,
     United States House of Representatives, “Weaknesses in DOT’s Suspension and Debarment Program Limit Its Protection of
     Government Funds,” March 18, 2010.


                                                                                                                         11
EXHIBIT A. OIG'S RECOVERY OVERSIGHT WORK

                                       Completed ARRA Work
             Title                       Type of Product        Date Issued
Top Management Challenges Facing
the Department of Transportation              Testimony         March 10, 2009
American Recovery and
Reinvestment Act of 2009: Oversight
Challenges Facing the Department of
Transportation                                  Report          March 31, 2009
American Recovery and
Reinvestment Act: DOT’s
Implementation Challenges and the
OIG's Strategy for Continued
Oversight of Funds and Programs               Testimony           April 29, 2009
American Recovery and
Reinvestment Act: DOT’s
Implementation Challenges and the
OIG’s Strategy for Continued
Oversight of Funds and Programs               Testimony           April 30, 2009
DOT’s Suspension and Debarment
Program                                      ARRA Advisory        May 18, 2009
Sampling of Improper Payments in
Major DOT Grants Programs
Department of Transportation                 ARRA Advisory        June 22, 2009
FAA’s Process for Awarding ARRA
Airport Improvement Program
Grants                                       ARRA Advisory       August 6, 2009
Status of Operating Administrations’
Processes to Conduct Limited
Quality Reviews of Recovery Act
Recipient Data                                  Report          October 6, 2009
DOT's Implementation of the
American Recovery and
Reinvestment Act: Continued
Management Attention Is Needed to
Address Oversight Vulnerabilities               Report       November 30, 2009
DOT’s Suspension and Debarment
Program Does Not Safeguard Against
Awards To Improper Parties                      Report          January 7, 2010
Letter to Senator Mark Pryor on DOT
OIG’s Recovery Act Oversight                 Congressional
Activities                                  Correspondence    February 19, 2010
Recovery Act Data Quality: Errors in
Recipient Reports Obscure
Transparency                                    Report        February 23, 2010


                                                                             12
Exhibit A. OIG’s Recovery Oversight Work
                                    Completed ARRA Work
             Title                      Type of Product                              Date Issued
Weaknesses in DOT’s Suspension
and Debarment Program Limit its
Protection of Government Funds                 Testimony                             March 18, 2010
Federal Railroad Administration
Faces Challenges in Carrying Out
Expanded Role                                  Testimony                               April 29, 2010
FHWA’s Oversight of the Use of
Value Engineering Studies on ARRA
Highway and Bridge Projects                 ARRA Advisory                              June 28, 2010
Letter To Ranking Member Issa
Regarding DOT’s Use of ARRA                  Congressional
Signage                                     Correspondence                          August 17, 2010
ARRA Websites Vulnerable to
Hackers and Carry Security Risks                Report                             October 22, 2010
Actions Needed To Strengthen The
Federal Highway Administration’s
National Review Teams                           Report                               January 6, 2011
Amtrak Made Significant
Improvements in its Long-Term
Capital Planning Process                        Report                              January 27, 2011
FAA Fulfilled Most ARRA
Requirements in Awarding Airport
Grants                                          Report                             February 17, 2011

                                     Ongoing ARRA Work
                                            Title
ARRA Capital Assistance for High Speed Rail Corridors and Intercity Passenger Rail Service Programs
Oversight of Federal–aid Highway Projects Administered by Local Public Agencies
FHWA’s Federal–Aid Highway Program Oversight of Procurement Practices for ARRA–Funded Contracts
at State Departments of Transportation
Review of Job Creation Under the American Recovery and Reinvestment Act of 2009
High Speed Rail Forecasting Best Practices
FTA's Oversight of the Dulles Corridor Metrorail Project
FHWA's Oversight of High-Dollar ARRA Highway Projects
FTA’s Oversight of Major Transit Projects in New York City
High-Speed Rail and Intercity Passenger Rail Infrastructure Access Agreements
Transportation Investment Generating Economic Recovery Discretionary Grants
FAA’s Oversight of ARRA Expenditures
FRA’s Progress in Administering Major Grants
Improper Payment Oversight in FTA ARRA Programs
DOT’s Implementation of Single Audit Recommendations and Cost Recovery
Quantitative Analysis of the Causes of Amtrak’s Delays



                                                                                                  13
Exhibit A. OIG’s Recovery Oversight Work
